V

No.
IN THE SUPREME COURT OF THE UNITED STATES
MARCH 2021 TERM
JORGE LUIS ROSA-HERNANDEZ
Petitioner
v.

UNITED STATES OF AMERICA
Respondent
AFFIDAVIT OF SERVICE
I, John F. Yaninek, Esquire, do hereby affirm that:
1.

I am counsel of record for Petitioner Jose Luis Rosa-Hernandez.

2.

On March 2, 2021 a Petition for Writ of Certiorari was electronically
submitted to the Court.
3.
On March 2, 2021, the required hard copy was mailed to the Clerk of
Court, United States Supreme Court via U.S. First-Class Mail. (See Letter
attached Exhibit “A”).

4.
To date, my office has not received a time-stamped copy of the Petition
for Writ of Certiorari and the official filing of the document has not been finalized.
5.

It is believed that the document is lost somewhere in the U.S. Mail.

6.
Based on instructions from the Clerk of Court we have submitted and
served this duplicate of the March 2, 2021 filing.

WHEREFORE, Affiant hereby requests this Honorable Court to file the
Petition for Writ of Certiorari as of the date of submission, March 2, 2021.
Respectfully submitted,
THOMAS, THOMAS & HAFER, LLP

Date:

Johji F. Yanine^ Esquire
PO Box 999
Harrisburg, PA 17108
(717) 441-3952 - Phone
Attorney for Petitioner, Jorge Luis RosaHernandez

RECEIVED
APR 1 6 2021

•>
Mailing Address:
P.O. Box 999, Harrisburg, PA 17108

THOMAS, THOMAS & HAFER LLP
Attorneys At Law

Street Address:
225 Grandview Avenue, Fifth Floor
Camp Hill, PA 17011
Phone: 717.237.7100 Fax: 717.237.7105

John F. Yaninek
(717) 441-3952
jyaninek@tthlaw. com

March 2, 2021
Clerk of Court
United States Supreme Court
One 1st Street NE
Washington, DC 20002
RE:

JORGE LUIS ROSA HERNANDEZ v. UNITED STATES OF AMERICA
PETITION FOR WRIT OF CERTIORARI

To the Clerk of Courts:
Enclosed please find a Petition for Writ of Certiorari that was electronically submitted for filing
on March 2, 2021. Per my conversation with the Clerk’s office, one copy of the Petition with Motion
for Leave to Proceed in Forma Pauperis is enclosed. A second copy is enclosed for time-stamping
purposes. Would you kindly return a time-stamped copy to me in the provided envelope?
Thank you for your kind attention to this matter. Should you have any questions, please
contact me.
Very truly yours,
THOMAS, THOMAS & HAFER, LLP

/s/ fatfut

IJxmindi

John F. Yaninek, Esquire
JFY/alc
Enel.
Cc:

(Carlos D. Marchioli w/encl., via email)

www.tthlaw.com
PENNSYLVANIA
MARYLAND
NEW JERSEY
WASHINGTON, DC
VIRGINIA

